UNITED STATES SUPREME COURT

Benoit BROOKENS.
Petitioner
v.

Patrick PIZZELLA, Acting, Secretary,
Department of Labor.
Respondent

filed

’ ' '

May 2 o 2019

PETITION FOR CERTIORARI FROM THE
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA

September 26, 2019
Benoit Brookens, Pro Se
P.O. 2551
Washington, DC 20013-2551
Telephone No. 301/346-5458
Brookensb@vahoo.com

RECEIVED
SEP 21 'm
r •

i

QUESTIONS PRESENTED

(A) Whether the Federal Circuit has
jurisdiction over non-discrimination
issues in a mixed appeal filed within 60
days of the decision by the Merit
Systems Protection Board pursuant to 5
U.S.C. 7703(b)(1)(A).
(B) Whether the D.C. Circuit erred in
summarily affirming that the transferee
U.S. District Court under 28 U.S.C.
1631, from the Federal Circuit, “in the
interest of just” lacked jurisdiction?

ii

I.

PARTIES

Parties to the proceeding are identified in the
caption of the case.

TABLE OF CONTENTS
* Cases Relied Upon
Questions Presented........
Parties to the Proceedings
Table of Authorities...........

Page

1

n
in

Cases
Agostini v. Felton, 521U.S. 207,

16

American Federation of Government Employees, et.
al. v. President Trump, D.C. Court of Appeals, case
18
18-5289,decided, June 2019
*Christianson et. al. v. Colt Industries
Operating Corp, 486 U.S. 800 (1988)...

9, 10, 12, 13

King v.Dole, 782 F. 2d 634 274, 275 (D.C. Cir.) .... 16
Kloeckner v. Solis, 568 U.S. 41 (2012)...................... 12
Kontrick v. Ryan 540 U.S. 443, (2004)..... ............. 17
Sadiq v. Department of Veterans Affairs
119 M.S.P.R. 45 (2013).................................................
U.S. v. Kwai Fun Wong 135 S. Ct. 1625 (2015)..... 17
United Stated Marine, Inc. United States Marine,
Inc. v. United State, et. al. 722 F.3d 1360, (2013).. 13

iii

Statutes
28 U.S.C. 1631
29 U.S.C. 7703(b)(1)(A)

4,11
4

Agency Decision
Brookens v. Labor, 2014 MSPB 27, April 11, 2014...2
Lee v. Labor, MSPB, Dec. 23, 2008

3,6,7

Documents
Federal Circuit, Form 10,......................

7

Performance Improvement Plan (PIP)
Requirement.............................................

2, 13

Anti-dumping Countervailing
Duties, Job Duty.......................
Letter from Eleanor J. Lauderdale to Clerk,
MSPB.....................................................................

10, 33

3

iv

Petition for Writ of Certiorari

II.

OFFICAL REPORTS

the case is reported, Benoit Brookens v. R.
Alexander Acosta, Secretary, Department of
Labor, 297 F. Supp. 3d 40, Dist. Ct. DC 2018)
Benoit Brookens v. Department of Labor, Docket
CB-7121-13-0012-V1,______________________,
MSPB ( ).

III.

JURISDICTION

The Petition is filed within 90 days, of the USCA
DC Cir. Denial of rehearing in banc, on Feb. 19,
2019

IV.
APPLICABLE STATUTES
5 U.S.C. Sec. 7703(b)(1)(A)
28 U.S.C. Sec. 1631
V.

APPENDIX
A Judgment of the U.S. District Court..... 3
B. Summary Affirmance of the U.S. Court
28
of Appeals for DC

1

V

C. Denial of Rehearing En Banc, U.S.
District Court For the District of
Columbia....................................................

41

D. Transfer Order, U.S. Court of Appeals
for the Federal
Circuit
49
E. Federal Circuit Form 10

77

F. Decision, Merit System Protection
Board..........................................................

45

G. Petitioners Exceptions to
Administrative Judges Proposed Decision
H, Performance Improvement Plan
51
(PIP)
I. Anti-Dumping Countervailing (ADCVD)
Job Duties REMOVAL

37

Vi

TABLE OF CONTENTS

I.
II.
III.
IV.
V.
VI.

VII.

Proceeding Below.................................. 1
Appeal to the Federal Circuit............. 5
Argument
Mr. Brookens Notice of Appeal to the
Federal Circuit Was Timely................ 6
Standards for Summary Affirmance.. 11
Reasons for Accepting the Petition
Conflict Among the Circuit—In the
17
Same Case..........
19
Relief Requested

Conclusion

19

Certificate

Attachment

1

I.

PROCEEDINGS

Benoit Brookens, was hired in 19901 as a civil
service employee in the Department of Labor’s (DOL)
Bureau of International Labor Affairs (ILAB) as an
International Economist in the Trade Negotiations
Division. In 1999, Mr. Brookens was terminated. Mr.
Brookens grieved his removal under the Union’s
Collective Bargaining Agreement (CBA) alleging
retaliation for protected union activity. The
Arbitrator agreed and in 90 days, Mr. Brookens was
reinstated to his Government position. However, the
U.S. Department of Labor refused to fully
compensate Mr. Brookens for the period of his
removal.
In 2007, Mr. Brookens’ acting supervisor,
Carlos Romero, serving a 120 day “detail”, rotational
promotion, as required by the CBA, removed duties
from Mr. Brookens’ portfolio, and downgraded his
performance when he failed to “volunteer” for new
assignments, among them, serving as the
Department of Labor lead person for Anti-Dumping
and Countervailing Duties, (Appendix, 35).
The selecting official, Gregory Schoepfly
advertised the vacancy and rejected all applicants,
including Mr. Brookens.
1 Federal Service began in 1973-1980 as a U.S. Department of State,
Economic/Commercial Officer with tours in the Department of State,
Department of Commerce, and the U.S. Embassy, The Hague,
Netherlands. Mr. Brookens served as an Adjunct Professor of Finance,
University of Virginia, Northern Virginia Campus, 1986-90 and other
experiences prior to joining the U.S. Department of Labor.

2

The position was then re-advertised to include a
new job requirement: “Performance Improvement
Plan (PIP) experience”. This job experience
requirement, “PIP” experience, however, is NOT a
“duty skill” acquired by threshold level bargaining
unit employees, becoming first time, first line
supervisors at the U.S. Department of Labor nor
even known as a qualification in any other federal
agency.
A new supervisor, Timothy Wedding, hired from
outside the U.S. Department of Labor, with the
required “PIP experience”, expressed dissatisfaction
with Mr. Brookens’ performance2 just after eight (8)
working days on the job, leading to placing Mr.
Brookens on a PIP.
The Union consolidated four (4) of Mr. Brookens’
pending fourteen (14) personal grievances for
arbitration.
The arbitrator, after a hearing, dismissed Mr.
Brookens’ grievance and the Union appealed. The
Merit Systems Protection Board vacated the
arbitration award to “further adjudicate” Mr.
Brookens’ allegations of discrimination and reprisal.
Brookens v. Department ofLabor, 2014 MSPB 27,
April 11, 2014. The Board found the following:
“As the appellant asserts, the arbitrator
failed to provide a legal or factual analysis to
support his findings that the agency did not
retaliate against the appellant for his union
2 Mr. Wedding, in violation of Civil Service Rules and the Collective
Bargaining Agreement (CBA) "sat in" on Mr. Brookens' personnel
evaluation with Mr. Romero. This issue its still pending a hearing under
the CBA arbitration procedures.

3

activities and did not discriminate against him
because of age and race. The Board may make its
own finding when the arbitrator failed to cite any
legal standard or employ any analytical
framework for his evaluation of the evidence. Id.
Here, the arbitrator did not set forth any
analytical for his determination on the appellant’s
claims of discrimination or retaliation for union
activity. Therefore, we are vacating the
arbitration decision as to the findings of no
discrimination and no retaliation. Pursuant to the
Board’s authority in 5 C.F.R. 1201.155(e) we
forward the matter to the Board’s Washington
Regional Office for assignment to an
administrative judge to make recommended
findings on the appellant’s discrimination and
retaliation claims under the appropriate legal
standards. See Sadiq v. Department of Veterans
Affairs, 119 M.S.P.R. 450, 456 (2013).
The MSPB then entered the following order:
ORDER
For the reasons set forth above, we
FORWARD this case to the Washington
Regional Office for further adjudication. The
administrative judge shall conduct such
further proceedings as necessary and make
recommended findings to the Board regarding
the affirmative defense of discrimination and
retaliation claim consistent with this Opinion
and Order. After the administrative judge
issues the recommendation, the case will be
forwarded back to the board. The parties may
file exceptions to the administrative judge’s
recommendation with the Clerk of the Board

i

4

within 20 days of the date of the
recommendation. The parties may response to
any submission by the other party within 15
days of the date of such submission. The Board
will subsequently issue a final decision on the
merits of the appellant’s request for review.

Department of Labor, Computer Failure
At approximately 6 p.m. the day the Union
representative was preparing to file her exceptions to
the administrative judge’s proposed decision, she was
unable to “save the document in Microsoft Word.”
Attorney Lauderdale in her letter to the Clerk
of MSPB on October 20, 2014, stated that “(t)he IT
technician visited my office at approximately 6-00
p.m. and through some machinations lost the final
version of my brief. Between the two of us, we have
worked for over two hours to retrieve the document.
This was not possible.
I have tried to recreate all the work I have
done, but it is impossible to complete this evening. It
is obviously too late in the evening to now contact the
Clerk of the Board (not that I can find a number on
the web site anyway.) I need to retrieve the
document, and at best that cannot occur until
tomorrow. Please grant me until then to post the
brief. If it cannot be retrieved, I will need additional
time to recreate the final version. Please advise me
as to how to proceed. (Appendix 37)
“On October 21, 2014”, the Board states in its
December 16, 2014 decision “after the expiration of
the extension of time to file exceptions, the

5

appellant’s representative requested an additional
EOT id. Tab 35.”
The Board then decided, “[ajbsent exceptions
to the administrative judge’s Recommended
Decision, and based upon our review of his decision,
we Adopt the Recommendation. (A'32)
APPEAL TO THE FEDERAL CIRCUIT
Within the required 60 days pursuant to 5
U.S.C. 7703(b)(1)(A), Mr. Brookens filed his appeals
to the U.S. Court of Appeals for the Federal Circuit.
The Federal Circuit, sua sponte, raised the
status of Mr. Brookens’ discrimination claims,
determined that they were not “waived” terminating
its jurisdiction and transferred the case to the U.S.
District Court for the District of Columbia, under 28
U.S.C. 1631.
Upon motion, FRCP 12(b), by the Department
of Labor, the U.S. District Court dismissed Mr.
Brookens’ transferred case for lack of jurisdiction, in
that the appeal to the Federal Circuit was more than
30 days after the MSPB decision on December 16,
2014 decision.
Mr. Brookens appealed the district court’s
dismissal and the Court of Appeals summarily
affirmed. Mr. Brookens request for rehearing en
banc was denied and this Certiorari petition was
filed regarding the U.S. Court of Appeals for the
District of Columbia’s summarily overturning the
transfer ruling, “in the interest of justice” by the
Federal Circuit.

6

ARGUMENT
Mr. Brookens’ notice of appeal to the Federal Circuit
was timely, within the 60 day period prescribed by
Federal Statute, 5 U.S.C. 7703(b)(1)(A).
Federal Statute provides for appeals to the Federal
Circuit by filing the notice of appeal within 60 days
of the final decision of the Merit Systems Protection
Board. Mr. Brookens notice was timely filed.
However, the final MSPB decision, as it has in the
past, did not specifically state that appeals where the
appellant does not seek review of the equal
employment claims, are still reviewable by the
Federal Circuit. In comparison, Jacquen Lee, v.
Department ofLabor, December 23, 2008, 2008
MSPB 252, [Docket No. CB-7121-08-0020-V-1] the
MSPB provides notice of a determination of the non­
employment discrimination aspects of the appeal. (A43)
The MSPB notice states the following:
Other Claims: Judicial Review

7

If you do not want to request review of
this final decision concerning your
discrimination claims, but you do want to
request review of the Board’s decision without
regard to your discrimination claims, you may
request the United States Court of Appeals for
the Federal Circuit to review this final
decision on the other issues in your appeal.
You must submit your request to the court at
the following address:
United States Court of Appeals
For the Federal Circuit
717 Madison Place, N.W.
Washington, DC 20439
The governing statute, 5 USC 7703 states:
7703(b)(1)(A)
Except as provided in subparagraph (B)
and paragraph (2) of this subsection, a petition
to review a final order of final decision of the
Board shall be to the United States Court of
Appeals for the Federal Circuit.
Notwithstanding any other provision of law,
any petition for review shall be filed within 60
days after the Board issues notice of the final
order or decision of the Board.
Mr. Brookens, in support of his seeking review of the
MSPB rejecting as untimely his Exceptions to the
administrative judges proposed decision, filed MSPB
“Form 10. Statement Concerning Discrimination”.
The form was filed as follows: “AMENDED” March
13, 2015:

8

Section A:
Check the statements below that apply
to your case. Usually, it is one statement, but
it may be more. Do not alter or add to any of
the statements.
[X] (l) No claim of discrimination by reason of
race, age, national origin, handicapped condition has
been made or will be made in this case.
In response to the Federal Circuit’s order for
clarification, Mr. Brookens signed, at the direction of
counsel, on April 25, 2016 the following:
[X]
The petition seeks review only of the
Board’s or arbitrator’s dismissal of the case for lack
of jurisdiction for untimeliness.
At oral argument, counsel for Mr. Brookens
indicated that her petition was addressed to the
MSPB decision to not provide her the opportunity for
her requested one day delay in filing her Excepts to
the administrative judges proposed decision.
Unfortunately, at approximately 6:00 p.m. the U.S.
Department of Labor’s commuter system utilized by
Mr. Brookens counsel/union representative
prevented her from saving her work product on the
case.
Ms. Lauderdale stated that she and the
Department of Labor computer specialist worked for
several hours to solve the problem to enable her to
save her document and file the Exceptions to the
administrative judges proposed decision.

9

The Federal Circuit, however, apparently
recognizes that even if Mr. Brookens was granted the
relief he was seeking—-a procedural remand to the
MSPB to enable consideration of Mr. Brookens
Exceptions prepared by his counsel, and, at best, an
evidentiary hearing with the decision rendered on
the record based upon the preponderance of the
evidence, the case has, at best., been in adjudication
five (5) years.
At this point, Mr. Brookens’ appeal has been
pending going on now twelve (12) years. Mr.
Brookens’ supervisor3, who disapproved of Mr.
Brookens work only after 8 workings days on the job,
vacated his position within 30 days after terminating
Mr. Brookens, who at that time had accumulated
twenty-five plus years of federal service, with several
federal agencies4.
In the intervening period, this appeal
consolidates only four (4) of Mr. Brookens’
grievances, pending at the time his termination.
Since that time, 2007, twelve years, none of Mr.
Brookens’ ten (10) of the initial fourteen (14) related
arbitrations have been scheduled.5 ,
3 Timothy Wedding, according to the government watchdog website
www.federalpav.org/emplovees/bureau-of-international-laboraffairs/wedding-timothv-i was awarded a "performance bonus" by the
U.S. Department of Labor. His new employer, the Office of the United
States Trade Representative, did not recognize Mr. Wedding with a
similar performance award.
4 Mr. Brookens, NOW 71, a Black male residing in Maryland, has a life
expectancy of 75.5 years according to
en.wikipedia.org/wiki/List_of_U.S._states_and_territories_by_life_expec
fancy.
5 Under the Union's Collective Bargain Agreement, employee
terminations and adverse actions (and class action) grievances, take

10

Ms. Klochner, during her tenure at the Department
of Labor had just filed several workplace grievances
before the Labor Department moved to terminate her
employment, compared to the fourteen (14)
grievances Gfiled by Mr. Brookens in his individual
capacity, and not as a union representative--on
behalf of his fellow employees.
The Supreme Court, in its assessment of
Christianson, 818, recognized that it does not mean
that “every borderline case must inevitably
culminate in a perpetual game of jurisdictional pingpong until this Court intervenes to resolve the
underlying jurisdictional dispute, or (more likely)
until one of the parties surrenders to futility.” The
Supreme Court then crystallizes its true
jurisprudential objective—“Such a state of affairs
would undermine public confidence in our judiciary.”
Mr. Brookens, after five (5) years of litigation, then
now entering the 12 year since Mr. Brookens’
termination, was merely asking the Federal Circuit,
as relief, to hear his appeal, and if he prevails on the
merits, order the MSPB to grant her the one day
extension to file her Exceptions to the administrative
judge’s proposed decision.

precedence for arbitration, eg. the 2017 $8 million over-time settlement,
affecting current and former employees—including Mr. Brookens, now
at the center of other litigation over leadership, direction, and priorities
of the iocal and national unions. These proceeding do not include any of
Mr. Brookens filings under Title VII of the Civil Rights Act of 1964.
6 Mr. Brookens' grievances do not include proceeding pursuant to Title
VII of the Civil Rights Act of 1964.

11

The Federal Circuit, when faced itself with a transfer
from a coordinate court, the Fifth Circuit, in United
States Marine,Inc. at. 1365, notes its disposition of
the transfer^
If we were to disagree with that court’s
judgment requiring transfer, the case would
seemingly be left without a forum, unless the
Supreme Court intervened. In these
circumstances, under the “law of the case”
doctrine as explained in Christianson, we
think we must affirm the transfer order here
unless we conclude that the Fifth Circuit’s
judgment requiring transfer was “clearly
erroneous,” i.e. was not even “plausible.” See
486 U S. at 816, 108 S. Ct. 2166.

Summary Affirmance
The Issues of Mr. Brookens’ case transfer were
not simple and, as such, were not subject to
Summary Disposition as the D.C. Circuit has ruled.
Even a cursory reading of the District Court’s
analysis shows the existence of a divide among the
courts as to the proper application of law against the
proper standard for review.
The Federal Circuit, in United States Marine,
Inc. recognized that if it were to look only at the
statutory grant of jurisdiction, and start with the
statute under which USM brought its claim, transfer
here would be hard to support-'

12

“That is so with regard to both
requirements of the Section 1631 transfer^
that the district court lack jurisdiction and the
Claims Court have jurisdiction. United States
Marine, Inc. 1365. However, the Federal
Circuit’s decision shifts once its examines the
analysis of the transferring court. “The basis
for the Fifth Circuit’s conclusions can be seen
if one changes the analysis in two ways. First
to begin with the Tucker Act, not the FTCA.”
The Federal Circuits analysis continues “The
second is to give prominence to the essential
background principle of sovereign immunity
and what it means for jurisdiction over claims
against the United States.”
In Mr. Brookens’ case, Mr. Brookens is exhausting
his administrative remedies, in hope of a successful
outcome, upon its conclusion7.
After 12 years of this proceeding, Mr. Brookens still
has ten arbitrations patiently awaiting a hearing. In
contrast, Ms. Kloechner8, dropped her pending
administrative proceedings and filed, in U.S. District
Court, a civil action to address the core grievances
she had with the U.S. Department of Labor.
The Department of Labor, in Mr. Brookens’
transferred case to the U.S. District Court for the
7 Application of the preponderance of the evidence, judicial standard.
(Federal Rules of Evidence). Compare Rule 104 (b), 28 USC 2072.
8 Ms. Kloechner, p. 601, elected the most grievous issues for U.S. District
Court. The U.S. Court of Appeals, AFGE et al. v Trump, requires the
employee to waive minor contract violations until the result in the
employee's termination or "serious suspension" exceeding fourteen
days.

13

District of Columbia, demonstrated no interest in the
Federal Circuit’s rational for the transfer or its
decision that the district court could waive the 30
day civil action filing deadline.
The Federal Circuits transfer—in addition to
providing “the law of the case” also addressed the
“equitable relief’ requirement, in the interest of
justice.
Without a MSPB decision, balancing -and assessing
the evidence on record against the applicable legal
standard” and scrutiny of the (government’s)
rationale, for placing the initial “PIP” requirement in
Mr. Brookens’ supervisor’s Vacancy Announcement
and related issues formally raised by Mr. Brookens
in the grievance process, Mr. Brookens, as did Ms.
Kloechner, would have had to “abandon her pending
administrative proceedings” in favor of her
comprehensive civil action in U.S. District Court.
The Supreme Court, in Christianson, 818, recognized
the high potential for litigant frustration and
abandonment of the proceeding. The plaintiffs
claims being “fact based” resulting in decisions, as
here “providing a state of affairs Jthat] would
undermine public confidence in our judiciary,
squander [819*819] private and public resources,
and commit far too much of this Court’s calendar to
the resolution of fact-specific jurisdictional disputes
that lack national importance.”
As in this case, fact based adjudication,
appropriately is assigned to the expert realm of the
federal, specialized administrative agencies covering
international and national product dumping, anti-

'

14

trust and all facets of employment issues age, race
discrimination, and work related unfair labor
practices.
As the court has indicated, this case fails to
embrace national issues, except to the extent
millions of federal workers/state workers and
counter-parts in the federal sector and affect by its
wide reaching implications in the labor force.
Mr. Brookens, like with the interests of the
corporate litigants in Christianson et. al. v. Colt
Industries Operating Corp, 486 U.S. 800 (1988), at,
818, should not be without a judicial forum, due to
“lack of jurisdiction” ping-pong. The Federal Circuit,
in United States Marine, Inc. v. United State, et. al.
122 F.3d 1360, (2013) provides a perspective that
should be applicable here:
The Fifth Circuit ruling that the case
transfer must be to the Claims Court is the
law of the case. Applying this doctrine, we
affirm the resulting transfer order. In doing so
we necessarily hold that the Claims Court has
jurisdiction over USM’s suit with all that
entails under the court’s precedents about the
issues thereby resolved. At this point, this case
presents even more than the usual reasons for
litigation [1375*1375] to proceed with
expedition and the minimization of wasteful
duplication.
AFFIRMED.

15

Counsel for Mr. Brookens, in her request for a
hearing on the merits of Mr. Brookens’ appeal, is
simply seeking to compel the MSPB to acceptance
her—Exceptions to the administrative judges
proposed decision—she prepared on Mr. Brookens
behalf. [A-37],
The District Court, however, deemed this a “flawed”
litigation strategy in lieu of a title VII Civil Rights
suit in U.S. District Court.
Ms. Kloechner, coincidentally, also a U.S.
Department of Labor, employee, as was Mr.
Brookens, filed grievances with the Department of
Labor on “garden” variety workplace issues litigable
under the unions Collective Bargaining Agreement
(CBA) or agency Equal Employment Opportunity
(EEO) procedures.
As a consequence, the Department of Labor began
procedures to terminate Ms. Kloecher’s employment.
As in the similar case of Mr. Brookens, increased
adverse action by Labor Department management,
forced Ms. Kloechner, to conserve time and litigation
resources opted, to drop her pending administrative
proceedings and proceed with her core complaint in
U.S. District Court.
Mr. Brookens, on the other hand, opted to proceed
before the informal grievance process. Since, Mr.
Wedding, Mr. Brookens’ new supervisor, left the U.S.
Department of Labor within thirty (30) days after
Mr. Brookens was terminated from his employment,
the procedure may have just as well mooted itself
out— in the case of Mr. Brookens, as alleged, being a
truly “under-performing” Federal employee. With a

■

16

new supervisor, a new PIP may or may not have
been initiated or the adverse personnel action
against Mr. Brookens, continued.
These are the fact specific issues, Mr.
Brookens’ attorney raised in her MSPB Exceptions,
the “fact” the Supreme Court (or the District Court)
had determined not to be of general national
importance.
The administrative judge’s findings, should
encompass, in any event, whether Mr. Brookens
had a meaningful opportunity to improve his job
performance9, as this supervisor sought to result in
more effective work of U.S. trade negotiators,
including, on the U.S. Delegation, Labor Department
representatives. The work of the federal trade
negotiations would have improved -and by review of
Mr. Brookens publications10, would have had an
impact on his assigned industrial sectors, autos,
9 The performance component is being litigated in American Federation
of Government Employees, et. al. v. President Trump. D.C. Court of
Appeals, case 18-5289, June 2019. p.18. The FLRA's familiar with labormanagement relations is this more than "helpful background
knowledge, it is the expertise that goes to issues of the case." AFGE, 381
F. Supp. 3d. at 408.
10 Child Labor Report for Mozambique, 2006 Report. 2005 Findings on the
Worst Forms of Child Labor. U.S. Department of Labor, Government Printing
Office, 2006;
Book Review “North American Free Trade: Issues and Recommendations";
Journal of Inter-American Studies and World Affair. Volume 34, Number 2,
Summer 1992; p. 189
Book Review "North America Without Borders? Integrating Canada, the United
States, and Mexico;" Journal of Inter-American Studies and World Affairs.
Volume 35, Number 1, 1993; p.153
"Diplomatic Protection of Foreign Economic Interests in the New International
Economic Order" Journal of Inter-American Studies and World Affairs. Spring
1978; p. 37.

17

chemicals, satellites and developing countries for
which Mr. Brookens would have been assigned, if
any new supervisor’s performance improvement
efforts were successful.
If Mr. Brookens’ performance was so
inadequate, the inquiry is why were Mr. Brookens’
supervisors so adamant to require him to serve as
the Labor Department LEAD for “AD-CVD”, AntiDumping, Countervailing Duty on the Federal
Government, Inter-agency Coordinating Committee?
The bottom line analysis, the D.C. Circuit’s —
en banc—determination encompassing Mr. Brookens’
decision to file an appeal with the Federal Circuit—
on the MSPB acceptance of his Exceptions to the
administrative judges proposed decisions is not as
clear as the D.C. Circuit’s Summary Affirmance
appears.
The District Court, in its decision, recognizes:
that it may well be that the D.C. Circuit will
conclude at some point that King is no longer
good law. But that day has not come. In the
absence of clear Supreme Court precedent
overruling King, this Court will “follow the
case which directly controls, leaving to [the
D.C. Circuit] the prerogative of overruling its
own decisions.” Agostini, 521 U.S. at 207. The
Court thus concludes that King’s jurisdictional
holding remains binding on district courts in
this Circuit and compels dismissal of this case

18

for lack of subject matter jurisdiction.
(Brookens at 49)
REASONS FOR ACCEPTING THE PETITION
In context, the D.C. Circuit’s summarily affirming
the lack of jurisdiction by the District Court and that
the 30 day filing deadline is not tolled by the transfer
from the Federal Circuit, is in error.
As the Court subsequently explained in
greater detail, courts had often mislabeled
statutes of limitations as “jurisdictional” and
should be more “meticulous” in applying that
term. Kontrick v. Ryan, 540 U.S. 443, 454-55
(2004). In fact, “most time bars are
nonjurisdictional.” United States v. KwaiFun
Wong, 135 S. Ct. 1625, 1632 (2015). But not all
of them. A statute of limitations is
jurisdictional if a “clear statement” to that
effect can be drawn from the statute’s text,
context, and legislative history. Id (Brookens
U.S.D.C.______ .
For these reasons, Mr. Brookens’ case has a conflict
between the rulings of law between the
Federal Circuit and the Court of Appeals for the D.C.
Circuit.
In this instance, the conflict, between the circuits is
in the same case.
On this ground alone, this petition for certiorari
should be accepted. This case is “of national
importance” to the millions of federal workers and

19

their' compatriots in state and municipal government
(as well as affected workers in the private sector),
who believe that the evidentiary standard, that tips
our global scale of justice, is the applicable standard
of justice, not just in America, but advocated in our
work around the world.
Respectfully submitted,
This September 26, 2019

Benoit Brookens
P.O. Box 2551
Washington, DC 20013-2551
301/346-5456
Brookensb@yahoo.com

